THE CITY OF NEW YORK

LAW DEPARTMENT

JAMES E. JOHNSON
Corporation Counsel

100 CHURCH STREET
NEW YORK, NY 10007

RICHARD DEARING
Chief, Appeals Division
Phone: (212) 356-2501
Fax: (212) 356-1148
rdearing@law.nyc.gov

July 9, 2020
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, DC 20543-0001
RE:

United Parcel Service, Inc. v. New York, et al.,
Docket No. 19-1306

Dear Mr. Harris:
I am an attorney in the office of James E. Johnson, Corporation Counsel of
the City of New York, and counsel of record for plaintiff-respondent City of New
York in the captioned case. The City of New York’s opposition to petitioner’s petition
for a writ of certiorari is currently due July 20, 2020. Because of a recent death in
my family, which unexpectedly prevented me from being able to work on this
opposition, the City respectfully requests a two-week extension of the time to file its
opposition, up to and including August 3, 2020. The City previously received a 30day extension of its time to file its opposition.
Petitioner consents to this request. Counsel for respondent the State of New
York has informed me that the State intends to seek a similar two-week extension
to file its opposition.
Thank you very much for your consideration.
Sincerely,
/s/
Richard Dearing
Chief, Appeals Division

cc:
Mark Andrew Perry
Counsel for United Parcel Service, Inc.
Gibson Dunn & Crutcher, LLP
1050 Connecticut Avenue, N.W.
Washington, DC 20036
mperry@gibsondunn.com
Steven C. Wu
Counsel for the State of New York
Office of the Attorney General
28 Liberty Street
New York, NY 10005
steven.wu@ag.ny.gov

-2-

